 

C@OCKLE

. E-Mail Address:
Le ga 1 Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-1309
KARI JANAE PHIPPS,
Petitioner,
v.
STATE OF IDAHO,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 4331 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of July, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

ener) Kenee 0. Loa Qndaah Ohba

Notary Public Affiant SIFTS

‘My Comm. Exp. September 5, 2023

 

 
